No. 20-905

IN THE

buprente Court of tie Zaniteb Otateti
INDEPENDENT SCHOOL DISTRICT No. 283,
Petitioner,
v.
E.M.D.H EX REL L.H. AND S.D.,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,980 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 13, 2021.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

